  Office of Inspector General
      Audit Report


  DOT’S FY 2012 IMPROPER PAYMENT
REPORTING GENERALLY COMPLIES WITH
                IPERA



        Department of Transportation

        Report Number: FI-2013-053
        Date Issued: March 14, 2013
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: DOT’s FY 2012 Improper Payment                                        Date:    March 14, 2013
           Reporting Generally Complies with IPERA
           Department of Transportation
           Report No. FI-2013-053

  From:    Louis C. King                                                              Reply to
                                                                                      Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Acting Assistant Secretary for Budget and Programs/
            Chief Financial Officer

           The Federal Government has longstanding concerns over improper payments 1
           made through its programs, and has intensified its efforts to eliminate payment
           errors. In July 2010, President Obama signed the Improper Payments Elimination
           and Recovery Act (IPERA) 2—which amended the Improper Payments
           Information Act of 2002 3—to encourage the elimination of payment error, waste,
           fraud, and abuse in Federal programs. IPERA requires improper payment rates of
           less than 10 percent at Federal programs. It also requires Federal agencies to test
           annually for improper payments in their programs and to publish reports on their
           findings in their Annual Financial Reports (AFR). The Act calls for inspectors
           general (IG) to review their agencies’ compliance with IPERA and to submit
           reports to the heads of their agencies. 4

           To meet IPERA’s requirements for IGs, we reviewed the Department of
           Transportation’s (DOT) fiscal year 2012 report on its improper payment testing to
           determine whether: (1) the improper payment information in the report was
           accurate; and (2) DOT complied with IPERA’s requirements. As part of this audit,
           we reviewed DOT’s contractor’s methodology to select the sample of 463
           1
             An improper payment is any payment that: should not have been made; was made in an incorrect amount; or that an
              agency cannot determine is proper or improper due to a lack of sufficient supporting documentation.
           2
             P.L. 111-204.
           3
             P.L. 107-300.
           4
             The IGs also submit their reports to the Senate Committee on Homeland Security and Governmental Affairs, the
              House of Representatives Committee on Oversight and Governmental Reform; the Comptroller General; and the
              Controller of Office of Management and Budget (OMB).
                                                                                                               2


payments it reviewed to determine if improper payments were adequately
reported. We also randomly selected and retested 51 of 450 5 of the payments
selected by the contractor. We conducted this audit in accordance with generally
accepted Government auditing standards. A detailed description of our scope and
methodology can be found in Exhibit A.

RESULTS IN BRIEF

In general, DOT accurately reported improper payments in its fiscal year 2012
AFR. However, we noted a minor error in the reported information. DOT
overstated the amount of payments tested in the five grant programs reported in
the AFR by about $99 million. In addition, DOT’s contractor did not perform
sufficient work on 2 of the 51 payments we retested and yet determined these
payments to be proper. Because of an insufficient audit trail for these payments,
we were unable to reach a conclusion as to whether or not they were improper.
While these issues did not impact the overall reporting, undetected errors and
insufficient testing diminish the accuracy and reliability of DOT’s improper
payment reporting.

DOT complied with IPERA with three exceptions. First, DOT did not report
planned or actual completion dates for corrective actions taken for improper
payments—identified in its 2012 AFR—in the Federal Highway Administration’s
(FHWA) and the Federal Transit Administration’s (FTA) Formula Grants
programs, or the results of these actions. Second, the improper payment target rate
goal for FTA’s Formula Grants Program was not achieved. OMB requires
agencies to set target rate goals for improper payments. The FTA’s Formula
Grants programs’ estimated improper payments of $38.1 million exceeded the
$23.7 million target by $14.4 million. Finally, DOT could not provide complete
information to support that the risk assessments performed to determine which
programs required improper payment testing conformed to OMB requirements.
DOT officials plan to strengthen procedures to address these matters.

BACKGROUND

IPERA requires agencies’ reports on annual improper payment testing to include
program risk assessments, improper payment estimates, corrective action plans,
and annual improper payment reduction targets. In April 2011, OMB revised its
Circular A-123, Appendix C, 6 (Circular) to enhance the implementation of

5
  We selected our sample from 450 transactions which DOT determined to be proper. We did not test the 13 that DOT
   already concluded were improper.
6
  OMB M-11-16, Requirements for Implementing IPERA: Issuance of Revised Parts I and II to Appendix C of OMB
   Circular A-123, April 14, 2011.
                                                                                                           3


IPERA. The Circular requires agencies’ reports on improper payment testing to
include: (1) descriptions and evaluations of payment recapture audit programs; 7
(2) amounts identified for recapture; (3) descriptions and justification of the
classes of payments excluded from payment recapture audits; (4) amounts
recaptured, and those outstanding and uncollectable, and (5) for programs with
improper payments of $10 million or more, discussions of improper payments’
causes and corrective action plans to resolve the causes, including target
reductions.

To comply with IPERA, DOT engaged an outside contractor to develop sampling
plans to use in testing for improper payments, test selected 8 invoice payments to
determine if they were proper, and project improper payment estimates for the
Department’s major grant programs. Annually, DOT tests four grant programs for
improper payments—FHWA’s Federal-aid Highway Program, FTA’s Formula
Grants and Capital Investment Grants Programs, and the Federal Aviation
Administration’s (FAA) Airport Improvement Program. For its 2012 testing, the
contractor included an additional program, the Federal Railroad Administration’s
(FRA) High-Speed Intercity Passenger Rail Program, in the testing because the
program had obligated a significant portion of DOT’s grant funds. The
Department had identified the program as having a high level of internal control
risk.

IN GENERAL, DOT ACCURATELY REPORTED ON IMPROPER
PAYMENTS

In general, DOT accurately reported on improper payments in fiscal year 2012, as
required by IPERA. However, we noted a minor error in the reported information.
Specifically, in its report, the Department overstated the amount of payments
tested in the five grant programs by about $99 million. For example, DOT tested
$104.6 million in payments for the Federal-aid Highway Program, but it reported
testing $184.7 million—an overstatement of about $80 million. DOT also reported
testing 463 payments when in fact it had tested no more than 451—an
overstatement of at least 12 transactions. DOT officials did not detect or correct
these errors. While the errors did not impact DOT’s conclusions on its improper
payment testing, they are not an accurate depiction of the Department’s improper
payment reporting.

DOT’s contractor could not readily provide us with sufficient documentation to
support its conclusions on two of the 51 payments we retested in order to

7
  A payment recapture audit reviews and analyzes programs’ accounting records and supporting documentation to
   identify overpayments. OMB Circular A-136, Financial Reporting Requirements, October 27, 2011, establishes
   reporting requirements for payment recapture audits.
8
  Certain transactions were tested by internal DOT staff.
                                                                                 4


determine if these transactions were improper. For one payment tested, DOT’s
contractor provided an invoice for about $972,000, but did not provide evidence
that the work described in the invoice was authorized by the grant agreement and
the amounts charged were accurate. In another instance, the contractor and the
grantee who received the payment did not agree on the correct Federal
participation rate. Based on the contractor’s work, we were unable to conclude
whether or not the correct participation rate was applied or if the payment was in
fact proper. While the overall accuracy of the Department’s report was not
affected since we did not identify any additional improper payments, these
issues—which DOT did not detect—reduce the reliability of DOT’s improper
payment reporting.

DOT COMPLIED WITH IPERA’S REQUIREMENTS WITH MINOR
EXCEPTIONS

DOT generally complied with IPERA’s other requirements with three following
exceptions:

• DOT did not report planned or actual completion dates for corrective actions
  taken for improper payments in FHWA’s and FTA’s Formula Grants
  programs, or the results of these actions.

• While DOT’s programs met IPERA’s required improper payment rate of less
  than 10 percent, FTA’s Formula Grants Program did not achieve its 2012
  improper payment target reduction rate goal. OMB requires agencies to set
  target percentage rate goals of total program payments for improper payments.
  For the Formula Grants Program, DOT officials estimated they had actual
  improper payments at $38.1 million or 0.44 percent of total Program payments.
  This exceeded the target rate goal of 0.25 percent by $14.4 million. DOT
  acknowledged the risk created by FTA’s not meeting its specific target rate
  goal.

• The section in the 2012 report on the Department’s risk assessment process
  may not be complete because DOT did not provide documentation needed to
  support the conclusions in the report.

DOT plans to strengthen its procedures to ensure the completeness of its reporting.
While these deficiencies did not result in noncompliance with IPERA, they reduce
the reliability of the Department’s improper payment testing and reporting.
                                                                                   5



CONCLUSION

OMB has designated the reduction of improper payments as a top priority for all
Federal agencies. DOT makes approximately $58 billion in payments to grantees
annually and reduction of improper payments has been a significant challenge. In
response, DOT has taken action to produce reliable reports on its programs’
improper payments and to comply with IPERA’s requirements. While DOT has
strengthened its annual improper payment testing and reporting, its procedures do
not fully meet the level of accountability that IPERA and OMB’s Circular A-123
require to minimize the possibility of improper payments of increasingly scarce
Federal funds.

RECOMMENDATIONS

We recommend that DOT:

1. Provide specific documentation requirements and greater oversight and review
   of contractors that perform improper payment testing to ensure that the work
   has an audit trail and is accurate.

2. Implement procedures that identify all the elements required for IPERA
   reporting, including the documentation needed to support these elements.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided notices of findings to DOT officials on March 1, 2013 and a
discussion draft report on March 12, 2013. We met with DOT officials on March
13, 2013 to obtain oral comments to our discussion draft and incorporated these
comments as appropriate. DOT agreed to provide a written response after
receiving our final report.

ACTIONS REQUIRED

In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your written comments within 30 calendar days. If you
concur with the findings and recommendations, please indicate the specific action
taken or planned for each recommendation and the target date for completion. If
you do not concur, please provide your rationale. You may provide alternative
courses of action that you believe would resolve the issues presented in this report.
                                                                                  6



We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1407, or George Banks, Program Director at
(410) 962-1729.
                                          #

cc:   FHWA Audit Liaison, HAIM–13
      OST Audit Liaison, M-1
                                                                                   7




EXHIBIT A. SCOPE AND METHODOLOGY

We conducted this audit from December 2012 through March 2013, in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

To address our audit objectives, we reviewed applicable laws and regulations. We
interviewed DOT personnel and contractors responsible for IPERA’s
implementation. To assess the Department’s compliance with IPERA
requirements we: (1) reviewed the Departmental Assessable Unit Risk Profiles to
determine whether DOT reviewed and reported programs that may be susceptible
to significant improper payments; (2) reviewed statistical sampling plans, and
improper payment projections and amounts to verify all programs susceptible to
significant improper payments were tested and accurately reported; and
(3) obtained supporting documents on the actions taken and reported in the AFR.

OIG’s Senior Statistician selected a statistical sample of payments that the
Department and its contractor had tested, and we retested the propriety of a total of
51 sample invoice payments totaling $211.5 million in FHWA’s Federal-Aid
Highway Program, FTA’s Formula Grant and Capital Investment Grant Programs,
FRA’s High-Speed Intercity Passenger Rail Program, and FAA’s Airport
Improvement Program. The documentation included, among other documents,
summary schedules, grant agreements, invoices, checks, and payment vouchers.




EXHI BI T A. Scope and Methodolog y
                                                             8




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                   Title
George Banks                           Program Director

Mark Rielly                            Project Manager

LaKarla Lindsay                        Senior Auditor

Scott Williams                         Analyst

Petra Swartzlander                     Senior Statistician

Megha Joshipura                        Statistician

Susan Neill                            Writer-Editor

Lynn Dowds                             Referencer




Exhibit B. Major Contributors to This Report
